                  U.S. Department of the Interior
                  Office of Inspector General




                          ADVISORY REPORT


                     INTERIOR DEPARTMENT ELECTRONIC
                        ACQUISITION SYSTEM (IDEAS)

                                REPORT NO. 98-I-242
                                  FEBRUARY 1998




i i   i i i i i
              United States Department of the Interior
                                                                          E-IN-MOA- coo l-95
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




                              ADVISORY REPORT


Memorandum

T o ..     Assistant Secretary for Policy, Management and Budget

From:


Subject:   Advisory Report on the Interior Department Electronic Acquisition System
           (IDEAS) (No. 98-I-242)

                                 INTRODUCTION
This report presents the results of our review of the development and implementation of the
Interior Department Electronic Acquisition System (IDEAS). The objective of our review
was to evaluate IDEAS in its early stages so that constructive suggestions could be provided
to the Department of the Interior to ensure successful and cost-effective implementation of
IDEAS. Overall, we concluded that while several issues were identified during our initial
review which could significantly impact the costs, benefits, and successful implementation
of IDEAS, the Department had taken appropriate actions to address these issues (see the
Discussion section of this report).

BACKGROUND

In 1989, the Department of the Interior completed a study (initiated in 1988) of existing
bureau procurement systems which identified 11 automated procurement systems in six
bureaus and found that four bureaus did not have automated procurement systems. The study
also identified the following deficiencies in the Department’s automated procurement
systems: (1) bureau reporting to the Interior Procurement Data System was inaccurate,
incomplete, and untimely; (2) the ability to transfer data from bureau procurement systems
to bureau accounting systems and other administrative systems would require the
development of multiple interfaces; (3) manual preparation and processing of requisitions,
purchase orders, solicitations, contracts, and reports were labor intensive and inefficient; and
(4) the lack of standardization in the procurement process had resulted in the development
of multiple procurement systems. To address these deficiencies, the Department issued a
Mission Needs Statement in 1989 and began to develop plans for an automated
Departmentwide procurement system, the Interior Department Electronic Acquisition System
(IDEAS).

The IDEAS project is a major undertaking, with procurement managers and staff from each
of the bureaus participating throughout the initiation and development phases. The
Department assigned responsibility for overall project management to the Office of
Acquisition and Property Management, within the Office of the Assistant Secretary for
Policy, Management and Budget. The U.S. Geological Survey’s Office of Procurements and
Contracts was assigned responsibility for administering the contract, and the Geological
Survey’s Washington Administrative Service Center was assigned responsibility for
providing technical management of the system. The conceptual framework of IDEAS was
ambitious and included the requisitioning, small purchasing, and contracting functions and
interfacing the procurement system with the financial and property systems, all of which
were anticipated to be fully integrated within IDEAS to resolve the deficiencies identified
in the 1989 study.

By December 199 1, the Department had developed the functional requirements for IDEAS,
having found that there was no automated procurement system available commercially or in
the Federal Government that met all of the Department’s needs. In September 1993, the
Geological Survey awarded a contract to Price Waterhouse to implement IDEAS.
CACI, Inc., a subcontractor, was to provide the software, which was proprietary. (Because
the software was owned by CACI, any enhancement or other changes to the software had to
be made by CACI, generally at additional cost to the Government.) The contract period
included the base year (fiscal year 1994) and 9 option years, with total authorized funding
of $27.8 million.

On October 26, 1993, the President issued the memorandum entitled “Streamlining
Procurement Through Electronic Commerce,” which required executive agencies to
establish, by September 1994, an initial electronic commerce capability that would enable
the Federal Government and private vendors to exchange requests for quotations, price
quotations, purchase orders, and notices of award through electronic data interchange. To
meet the President’s September 1994 milestone, the Department incorporated electronic
commerce into the IDEAS project. In June 1994, electronic data interchange was
simultaneously implemented with the IDEAS small purchasing system at five pilot locations:
Bureau of Mines offices in Denver, Colorado, and Pittsburgh, Pennsylvania; U.S. Geological
Survey offices in Denver and in Reston, Virginia; and the Minerals Management Service
office in Herndon, Virginia.

Through May 1997, the Department had obligated about $15.1 million on the IDEAS project,>
consisting of contract costs of about $7.9 million and in-house costs of $7.2 million. As of
January 1997, IDEAS had been installed at approximately 80 sites in five bureaus: the
Bureau of Reclamation, the Minerals Management Service, the U.S. Fish and Wildlife


SCOPE OF REVIEW

To accomplish our objective, we interviewed personnel involved in various aspects of the
IDEAS project, including system users and those involved in planning, developing, and
                            We also participated in demonstrations of IDEAS operations;
observed the use of IDEAS in processing procurement actions; and independently tested
IDEAS to verify the existence of deficiencies, inadequacies, or undesirable characteristics
that were identified by IDEAS users during our interviews. In addition, we reviewed the
documentation for IDEAS, including the training manual, the users’ manual, the system
administrator’s manual, and the data dictionary, to assess their adequacy.

Our initial review covered the period from project study initiation in 1988 through
implementation as of March 1996. Our conclusions on the current status of the IDEAS
project are based, inpart, on discussions held with Office of Acquisition and Property
Management officials in May, June, and September 1997 and on information obtained from
these officials.

We reviewed the Secretary’s Annual Statement and Report to the President and the Congress
for fiscal years 1992 through 1995, which is required by the Federal Managers’ Financial
Integrity Act, and the Department’s Accountability Report for fiscal year 1996, which
includes information required by the Act, to determine whether any reported weaknesses
were directly related to the objective and scope of our review. We found that the Interior
Procurement Data System was reported as a material weakness in all 5 years because it
contained data that were incomplete and inaccurate. The 1996 report stated that this material
weakness would be corrected by September 1997. In addition, the Geological Survey, in a
fiscal year 1995 alternative management control review, said that “the deferral of System
Decision Paper number 3 until 1996 to allow more time to test the IDEAS Contracts
Module” was a potential weakness associated with IDEAS. The Departmental Manual and
Departmental implementing guidance on system development life-cycle management require
Decision Paper 3 to be completed before system implementation.




completed at three Minerals Management Service sites and three Bureau of Mines sites (the Bureau has since
been abolished). IDEAS was partially installed (either the contracting and small purchasing or small purchasing
and/or requisitioning subsystem) at the other 74 locations.

2We interviewed personnel within the following Departmental organizations who were involved in planning,
developing, and implementing IDEAS: the Office of Acquisition and Property Management, the Office of
Information Resources Management, the IDEAS Project Management Committee, the Software Advisory
Board, the Operational Capabilities Demonstration Team, and the Technical Proposal Evaluation Committee.

                                                      3
PRIOR AUDIT COVERAGE

The General Accounting Office has not issued any reports on IDEAS during the past 5 years.
However, the Office of Inspector General has issued two audit reports on the pricing
proposal for IDEAS submitted by Price Waterhouse as follows:

        - The January 1993 report “Review of Initial Pricing Proposal Submitted by Price
Waterhouse Under Request for Proposal No. 7890” (No. 93-E-391) stated that $17,298 of
the $3.32 million of proposed direct labor costs was questioned because the amount was
unsupported and the project manager’s direct labor rate was above an equitable ceiling rate.
The contracting officer subsequently negotiated a lower direct labor rate. Accordingly, we
considered the recommendation resolved.

        - The February 1993 report “Review of Indirect Cost Rates Submitted by Price
Waterhouse Under Request for Proposal No. 7890” (No. 93-E-553) stated that, in some
cases, the proposed indirect cost rates were significantly lower than the firm’s forecasted
rates. Therefore, we recommended that the recovery of indirect costs be limited to an
accepted or negotiated ceiling for the indirect cost rates. The contracting officer negotiated
a ceiling for the indirect cost rate. Accordingly, we considered the recommendation
resolved.

                                    DISCUSSION
During our initial review of the Interior Department Electronic Acquisition System (IDEAS),
we concluded that the Department, before it implemented the system, needed to address
deficiencies in the system, consider other alternatives, and conduct the critical review of the
project that was required by the Departmental Manual and Departmental implementing
guidance on system development and life-cycle management. After we discussed our
concerns with Acquisition and Property Management officials, these officials took
appropriate actions during our review to address these issues, as discussed in the following
paragraphs.

Initial Review of IDEAS

In our initial review, we planned to evaluate the development and implementation of IDEAS
in its early stages so that we could provide the Department with timely information to help
ensure that this automated procurement system was implemented in a successful and cost-
effective manner. During that review, we identified several factors that could impact the
successful implementation of IDEAS and the costs and benefits of the system. Overall, we
concluded that the system had a number of deficiencies, some of which had been brought to
the attention of project management officials by bureau users and/or the Washington
Administrative Service Center prior to and during the course of our review. Specifically, the
system was difficult to use and not user friendly; had limited word processing capabilities;

                                              4
required numerous enhancements, such as interfaces with the financial and property
management systems and better data aggregation capabilities for generating reports; did not
include Windows-based software; and did not have adequate user and training manuals.
These factors contributed to a high level of user dissatisfaction with IDEAS.

We also identified other factors that impacted system use and implementation. For example,
we found no reliable cost and time estimates for overall system development and
implementation, a declining volume of procurement transactions, recent downsizing of the
Department through streamlining and restructuring of organizations (which could impact the
need for IDEAS at all planned locations) and uncertainties regarding future funding and
staffing, and deficiencies in the Federal Government’s electronic commerce network that
supports IDEAS. Further, we identified other procurement systems that were not available
when the IDEAS contract was awarded but which were available at the time of our review
and merited consideration before the Department committed to the full development and
implementation of the Price Waterhouse version of IDEAS. We briefed Departmental
officials on the preliminary results of our review and expressed our concerns about IDEAS
shortcomings and costs and the need for a life-cycle review to address these issues. (Specific
information on the impact factors identified during our initial review of IDEAS is included
in Appendix 1.)

Critical Review

Large system acquisition projects generally require years to complete, and conditions often
change during the process that could impact the feasibility, cost, and potential benefits of a
project. Accordingly, continuous evaluation of a project is essential to ensure that resources
are spent effectively. Federal Information Processing Standards provide general guidelines
for documenting and reviewing automated system development. Specifically, Standards 3 8
and 64 state that managers should be provided technical documents to review “at the
significant development milestones” in order to determine that “requirements have been met
and that resources should continue to be expended.” In addition, the Department had issued
guidance on life-cycle management in the Departmental Manual (376 DM 10) and in
implementing guidance such as the Project Manager’s Guide to Application Life-Cycle
Management. The Departmental Manual and the Guide required that a system decision paper
be prepared by the project team and presented by the Project Manager to the Project
Management Committee for review and approval at each of four critical milestones to
provide management with the information needed to make an informed decision on whether
to continue with the next phase of the project. Although the Department prepared the first
two of the required decision papers after the concept development stage (Decision Paper 1)
and the system design stage (Decision Paper 2) were completed, it did not prepare the




                                              5
decision paper (Decision Paper 3) that was required after completion of the system
construction/acquisition and user acceptance stage.3

The purpose of preparing a System Decision Paper 3 is to ensure, prior to placing the system
in operation, that: (1) the mission needs and project scope are still valid and have not
changed significantly; (2) computer programs and data bases have been fully developed,
documented, and tested; (3) the life-cycle schedule and estimated costs are still realistic and
acceptable; (4) the system is cost effective and affordable and is still the best acceptable
solution; (5) the developed system satisfies the design and functional requirements; and
(6) planning for implementation, is adequate, including manpower and training
documentation, logistics, readiness, operational considerations, security, and integration with
existing operational systems.

We were aware that development and implementation of IDEAS was well under way at the
time of our initial review, the Department had invested substantial time and resources in the
IDEAS project, the Department’s efforts to implement electronic commerce had gained
prominence for the Department in the Federal electronic commerce community, and the
Office of Management and Budget had expressed satisfaction with the Department’s
progress. However, because the analysis required for System Decision Paper 3 was not
prepared, there was insufficient evidence available for us, or the Department, to determine
whether IDEAS represented the best solution for the Department’s procurement needs and
whether IDEAS was affordable. Accordingly, we concluded that the Department, before it
committed to full implementation and further development of the system, needed to
expeditiously complete a review of IDEAS which would address: (1) the purposes of
Decision Paper 3 and (2) factors that we identified which impacted the costs and benefits
and the potential success of the project. We believed that completion of this review would
provide the information needed to determine whether IDEAS represented the best solution
for the Department.

Current Status of IDEAS

In response to our concerns and the concerns expressed by users and bureau officials, the
Department awarded a contract to the Logistics Management Institute in March 1996 to
evaluate IDEAS. The contractor’s two January 1997 reports confirmed most of the IDEAS
shortcomings and deficiencies identified by our review, identified other shortcomings, and
presented suggestions and options for addressing these issues. In August 1996, the
Department also convened an IDEAS Contracts Module Workgroup to identify the needs of
bureau contracting personnel. In January 1997, the Department completed an evaluation of
the IDEAS project that, according to the Department, was conducted in accordance with the




whether system revision is needed.

                                               6
requirements of the Information Technology Reform Act of 1995 .4 The evaluation, which
considered the results of the reviews conducted by the Logistics Management Institute and
the Workgroup, identified two alternatives for proceeding with the development of IDEAS:

         - Alternative 1. Modify the IDEAS contract to include Departmentwide license
rights to CACI’s Windows software, and continue to enhance that Windows product.

     - Alternative 2. Acquire a Departmentwide license to obtain software that is
Windows based and currently meets user expectation of a Windows product.

Based on the evaluation and a review of other currently available procurement systems, the
Department issued a decision document in January 1997 which recommended that the
Department endorse Alternative 2 and seek another contractor that could satisfy the
Department’s existing procurement system requirements. Since reaching that decision, the
Department has moved expeditiously, with full involvement of bureau users, to seek another
vendor and award a contract as follows:

       - In February 1997, the Department issued a request for quotations to the vendors
on the General Services Administration’s Schedule E (vendors that offer automated
procurement systems); received proposals from five vendors; and selected two of the vendors
to demonstrate their software based on the recommendations of a Technical Evaluation
Committee, which comprised members from four bureaus and the Office of Acquisition and
Property Management.

        - In March 1997, the vendors conducted product demonstrations, and users from all
bureaus and offices were invited to attend and evaluate the vendors’ products. Based on the
results of the demonstrations and evaluations, the Department determined that American
Management Systems’ Procurement Desktop software was the better product at the lower
cost? A contract was awarded to American Management Systems for $863,755 that
provided for system testing of the software at the Washington Administrative Service Center
offices in Denver and Washington, D.C., and at three bureau operational pilot sites at the
Bureau of Reclamation’s Coulee Power Office in Grand Coulee, Washington; the Fish and


4The need for an ongoing evaluation of information systems was reemphasized by the Information Technology
Reform Act of 1995 (effective on August 8, 1996) which required agencies to provide information to the Offke
of Management and Budget that explains the basis for selecting the information technology systems, the benefit
or “return on investment” to be received from those systems, the methods and tools used to measure the return,
and the specific and quantifiable data that have been gathered to support the agency’s conclusions. The Act
also required agencies to have supporting data to demonstrate that they are continuously and objectively
evaluating past choices to determine whether those choices are still valid. Further, the Act required the Office
of Management and Budget to review agency submissions made during the budget process and to consider the
data in allocating funds for information technology.

              based on the requirements identi fied in the request for quotations. The cost of required
enhancements could not be determined for either vendor at that time.

                                                       7
Wildlife Service’s Regional Office in Hadley, Massachusetts; and the Geological Survey’s
headquarters office in Reston.

         - In June 1997, the Chief of the Washington Administrative Service Center issued
a pilot implementation and system test report which stated that the software met the users’
expectations of a Windows product and identified software issues that needed to be
addressed. The report also stated that a list of the required software corrections was being
sent to the contractor. Based on the test results and the recommendations from the bureaus,
the Department decided to award a contract by the end of fiscal year 1997 to American
Management Systems.

We recognize that technological advances, a decentralized environment for system
implementation, budget restrictions, and bureau organizational changes have impeded the
Department’s progress in accomplishing its objective to acquire a Departmentwide
automated procurement system. We are encouraged by the Department’s recent efforts to
reevaluate its acquisition of a Departmentwide automated procurement system and to seek
a procurement system that better meets users’ needs. However, we believe that the
Department, having invested a substantial amount of funds and resources on a prior system
that did not adequately meet user requirements, should continuously evaluate the new system
to ensure that it provides needed functional requirements, satisfies user needs, and meets
funding and milestone completion dates.

Recommendation

We recommend that the Director, Office of Acquisition and Property Management, develop
a detailed implementation plan for IDEAS, including detailed cost estimates and milestone
dates; periodically evaluate the development and implementation of IDEAS to ensure that
continuation of the system is justified, as required by the Information Technology Reform
Act of 1995; and ensure continuance of the practice of encouraging user involvement and
input throughout the development and implementation stages.

Office of Acquisition and Property Management Response and Office of
Inspector General Reply

In the January 15, 1998, response (Appendix 2) to our draft advisory report from the
Director, Office of Acquisition and Property Management, the Office concurred with our
recommendation and identified the actions taken to implement the recommendation. Based
on the response, we consider the recommendation resolved and implemented.

Since the report’s recommendation is considered resolved and implemented, no further
response to this report is required (see Appendix 3).




                                             8
The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of personnel at the Office of Acquisition and Property
Management and the Geological Survey’s Washington Administrative Service Center in the
conduct of our audit.
                                                                               APPENDIX 1
                                                                                Page 1 of 4



                         FACTORS THAT IMPACTED
                           COSTS, BENEFITS, AND
                       POTENTIAL SUCCESS OF IDEAS


During our initial review, we identified system and other factors that impacted the successful
implementation of IDEAS and the costs and benefits of the IDEAS project. These factors
contributed to the Department of the Interior’s decision to reconsider the original Price
Waterhouse version of IDEAS.

Design and Use Factors

         User Dissatisfaction. Most of the users we interviewed expressed dissatisfaction
with the original IDEAS system, stating that it was “inefficient” and “cumbersome to use”;
did not have adequate system documentation such as users’ manuals, training manuals, or
a data dictionary; did not meet many of the major objectives identified for IDEAS, including
interfaces with the financial and property systems and centralized reporting capabilities; and
required numerous enhancements, including development of Windows-compatible software.
Users also said that the original system was “too old” and “inflexible” and that their existing
systems better served their needs.

        Document Generation. IDEAS did not have a modem word processing package that
included all of the features needed to produce procurement documents. The contract clause
selection process was difficult to use, and clauses could not be modified. As a result, some
users were preparing contract modifications manually and sending copies to vendors by mail
or facsimile. In addition, IDEAS was not capable of processing the Small Business
Administration’s Section S(a) contracts.

        Data Aggregation. IDEAS data transmitted from the various participating sites
could not readily be aggregated for reporting purposes because the sites were not
electronically linked. As a result, reports had to be prepared separately at each site,
transmitted to a region and/or bureau headquarters office for consolidation, and transmitted
to the Departmental offices for further consolidation to produce Departmental reports.

        System Documentation. Resource materials such as users’ manuals, training
manuals, and the data dictionary were not well organized and did not provide details on how
to (1) perform procurement actions, (2) solve problems encountered in using the system, or
(3) move among the many screens in IDEAS.

                                              10
                                                                              APPENDIX 1
                                                                               Page 2 of 4


        Reporting Capabilities. Although IDEAS contained an ad hoc reporting feature, the
IDEAS report generator limited the user to a single columnar format; thus, programming
skills were needed to produce a more comprehensive or sophisticated report. Also, IDEAS
reports generally could not be reviewed on-screen to check the accuracy or the size of the
report before it was printed.

        Document Processing. Users reported that with IDEAS, document generation often
took longer than through the automated and/or manual processes which the bureaus used
before IDEAS. Also, a study conducted by the Department in December 1995 found that
procurement actions conducted through IDEAS electronic commerce often took longer and
that products were frequently less satisfactory than similar actions conducted through the
existing manual methods.

         System Controls. IDEAS did not contain adequate system controls to prevent or
detect unauthorized actions during the document routing and review process and after
approval of the procurement. The system also did not provide a sufficient audit trail to
determine when and by whom information in the system was changed or that a change had
been made, did not require the routing and approval of a requisition by a procurement official
before it was processed by the procurement office (requisitions that were disapproved could
still be submitted to procurement), and allowed an employee who prepared a requisition to
modify the routing list at any time (for example, the name of the reviewer who disapproved
a requisition could be removed from the routing list).

        Progress on Deficiencies and Enhancements. Although progress was made in
correcting system deficiencies, most of the enhancements requested by the users and/or
identified by the Geological Survey’s Washington Administrative Service Center either had
not been developed or had not been scheduled for development at the time of our initial
review. As of January 1996, about 230 enhancements had been identified, but only 3 of the
25 highest priority enhancements had been scheduled for implementation. Because time
frames and development costs for the enhancements had not been established, the time
frames for implementing and the affordability of the enhancements were not known.

       Data Input. The number of screens and keystrokes required by the system, the
complexity and lack of flexibility in processing an action through the numerous screens, and
the amount of time it took to input the data adversely affected user satisfaction and
productivity.




                                              11
                                                                             APPENDIX 1
                                                                              Page 3 of 4


Cost and Benefit Factors

        Development and Implementation Costs. The Department had not developed a
comprehensive plan for full system implementation; thus, the cost of full implementation had
not been determined. The cost of IDEAS initially was estimated to be about $10.9 million
over 9 years, but the contract with Price Waterhouse provided up to $27.8 million over
10 years. This increase was due, in part, to the addition of the electronic commerce
capability.

        Declining Volume of Procurement Transactions. The estimated number of
procurement transactions to be processed through the system decreased significantly as a
result of the Federal Acquisition Streamlining Act of 1994. The Act increased the small
purchase threshold from $25,000 to $50,000 (and up to $100,000 for procurement sites that
had electronic commerce), thus reducing the number of potential contract actions. The Act
also allowed credit card purchases of $2,500 or less to be made without competition and
without involving procurement personnel, thus reducing the procurement office work load
substantially. The reduction in procurement activity could impact the number of locations
where implementation of IDEAS would be cost effective.

        Downsizing and Reorganizing. The Department has undergone significant
reorganizations, downsizings, and budget reductions. For example, the Bureau of Mines was
abolished after it had implemented IDEAS at an estimated cost of over $180,000. Also, the
Office of Surface Mining Reclamation and Enforcement was reorganized and downsized,
the National Biological Service was incorporated into the U.S. Geological Survey, and some
bureaus had substantial reductions in their operating budgets.

        Electronic Commerce. The Federal Government’s computer acquisition network,
FACNET, which supports the IDEAS electronic commerce component, experienced
technical problems that resulted in some data being lost or erroneously changed during
processing. In addition, only about 1,300 of the approximately 200,000 vendors that conduct
business with the Government had registered with FACNET’s central vendor registration
database (all Government vendors were expected to register regardless of whether they
would be using electronic commerce), which substantially reduced the potential benefits of
electronic commerce through FACNET. Alternatives to FACNET, such as the use of the
INTERNET and message-based transfers (for example, electronic mail protocols), may be
more efficient and effective.

      Changing Technology. At the time of the award of the IDEAS contract in
September 1993, DOS (disc operating system), rather than Windows, was the standard


                                             12
                                                                             APPENDIX 1
                                                                              Page 4 of 4


operating system. However, since award of the initial IDEAS contract, the bureaus’
procurement offices have changed to a Windows environment, which provides more user-
friendly processing. CACI had not developed a Windows version of IDEAS at the time of
our review.

        Available Options. While IDEAS may have represented a reasonable approach for
conducting the Department’s procurement and electronic commerce activities at the time of
our initial review, the options for conducting these activities have expanded considerably
since the award of the initial IDEAS contract. For example, in March 1995 (18 months after
the award of the Price Waterhouse contract), the General Services Administration established
Schedule E, which listed 21 companies that were offering electronic commerce capabilities.
Some of these companies operated systems that were used by some Departmental bureaus.
Other options were available, including adopting a system that was being developed by other
agencies (the Environmental Protection Agency, the Department of Energy, the Department
of Transportation, and the Department of Housing and Urban Development were developing
their own systems either in-house or under contract) or contracting for the development of
a new system.




                                             13
                                                                                        APPENDIX 2
                                                                                        Page 1 of 3


                  United States Department of the Interior
                                    OFFICE OF THE SECRETARY
                                        Washington, D.C. 20240

                                         JA)I 15 m
Memorandum

To ..          Robert J. Williams
               Assistant

From:          Paul A. Denett
               Director, Office of Acquisition and Property Management

Subject:       Response to Draft Advisory Report on the Interior Department Electronic
               Acquisition System (IDEAS), Assignment No. E-IN-MOA-00 l-95


This memorandum responds to the Draft Advisory Report on IDEAS which we received
December 2, 1997 , and in particular the Offke of Inspector General’s recommendations.         We
appreciate the extensive effort your team expended in working with us to improve the
management of the IDEAS project and enhance its likelihood for success. The advisory report
accurately reflects the early project issues and the corrective actions we have taken, based in part
on extensive customer input and your own contribution.

The primary recommendations of the OIG were for this office to develop a detailed
implementation plan for IDEAS, including detailed cost estimates and milestone dates;
periodically evaluate the development and implementation of IDEAS to ensure that continuation
of the system is justified, as required by the Information Technology Reform Act of 1995; and
ensure continuance of the practice of encouraging user involvement and input throughout the
development and implementation stages.

With the acquisition of the IDEAS-Procurement Desktop (IDEAS-PD) software which is
currently in the process of being implemented, the Washington Administrative Service Center
(WASC) has been providing bi-weekly written updates to this ofice outlining the progress of the
Bureau implementations. The report outlines the critical milestones, achievements, and issues
affecting implementation, and each week meetings are conducted between the WASC and PAM
to discuss the report as well as project issues. Through the reporting and meeting procedures in
place, we have been kept apprised of the progress of the IDEAS project. Attached is a summary
implementation plan covering all bureaus. Detailed plans for each bureau which outline the events
leading up to the production stage of IDEAS are available for your review.

The cost estimates for each bureau implementation are provided as a separate attachment. The
WASC prepares a work order to the contractor, American Management Systems (AMS) covering
the activities for the bureau implementations and AMS responds with a cost estimate. The
progress of the implementations and funding are discussed with AMS at bi-weekly status
meetings.



                                                 14
                                                                     APPENDIX 2
                                                                     Page 2 of 3




Attachment

cc:   Robert Lamb, Deputy Assistant Secretary - Budget and Finance
      R. Schuyler Lesher, Deputy CFO
      Daryl W. White, Acting CIO




                                            15
                                                                                              IDEAS-PD Implementations                                                                          115198

                                                                                                                                    1998                                   1999                 T
 ID            Task Name                                   1 Start (            Finish 97Qtr 3 1 Qtr 4             Qtr   1 1   Qtr2 1 Qtr3   1     Qtr4   Qtr    1 1   Qtr 2 1 Qtr 3 I   Qtr4


-I1

  5
               Pilot Site Implementations

               DOI Full License Acquisition                     5/l 5197
                                                                            I
                                                                                    S/iii97 1 w- -

                                                                                  7131197
                                                                                                              j
                                                                                                              i
       I                                                                                                      1I

      1
6              Standard RDBMWechnical Architecture Deci         5/l 5197          8/l 1 I97                    1
                                                           I
  7            DOI required Software Enhancements               5/l 5197 12/31/97
       I                                                   I
  8            Data Conversion Planning/Programs                 619197          12/31/97
       I
  9            EDIGateway Cutover                                619197           l/30/98
       I
 10            Bureau Implementation Funding                     619197           1 O/l I97
       I
 II            FCC Planning & Implementation                    5/30/97 12/l 9197
       I
 12            OSM Planning & Implementations                   8/l I I97         1 /I 6198
       I
 14            MMS Migration                                     7lU97            5l2U98

 16            FWS Migration/Implementation                     6/l 6197          8/28/98
          I                                                I
 18            USGS Full Migration                              7/l 5197          4130198

 20            BOR Migration                                   1 O/l 5197         6126198
           I
 22
           I NPS  Implementation                                  Ill/98          9130199

 26
           I BIA Implementation                                 1 u3197           I U6/99

 29
           I BLM Implementation                                   918197          4128199

                                                           1 11/17/97 1 3 1 9 1 9 8
 32            ISCIOAS Implementation




                                               Task                - Summary                                             v-q                     Rolled Up Progress I
                                               Progress                                          Rolled Up Task
                                               Milestone           +                             Rolled Up Milestone 0

as of 12/I 7/97                                                                                                                                                 L:WSC\PSAD\DEROBERnlNITIMPL.MPP
                                           APPENDIX 3

   STATUS OF ADVISORY REPORT RECOMMENDATION

    Finding/
Recommendation
   Reference          Status          Action Required

       1           Implemented   No further action is
                                 required.




                        17
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 240hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, NW.                                     l-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Rerjon

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 l-800-424-5081
 T’DD l-800-354-0996

FI’S/Commerciai Numbers:
  (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washington. D.C. 20240
      U
